No. 19-1098

 

 

IN THE

Supreme Court of the United States

NATIONAL FOOTBALL LEAGUE, ET AL.,

Petitioners,
v.

NINTH INNING, INC., ET AL.,
Respondents.

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit

BRIEF OF THE CHAMBER OF COMMERCE OF
THE UNITED STATES OF AMERICA AS
AMICUS CURIAE IN SUPPORT OF
PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,393 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 8, 2020.

 

Colin Casey ‘Hogan
Wilson-Epes Printing Co., Inc.
